Appendix A-1
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
________
Argued Sept. 23, 2020

Decided Dec. 1, 2020

No. 20-5048
MOOSE JOOCE, ET AL.,
APPELLANTS
v.
FOOD & DRUG ADMINISTRATION, ET AL.,
APPELLEES
________
Consolidated with 20-5049, 20-5050
________
Appeals from the United States District Court
for the District of Columbia
(No. 1:18-cv-00203)
(No. 1:18-cv-01615)
(No. 1:19-cv-00372)
________
Jonathan Wood argued the cause for appellants.
With him on the briefs were Damien M. Schiff and
Oliver Dunford.
Lindsey Powell, Attorney, U.S. Department of
Justice, argued the cause for appellees. With her on
the brief were Mark B. Stern and Joshua Revesz,
Attorneys, Robert P. Charrow, General Counsel, U.S.
Department of Health and Human Services, and
Peter G. Dickos, Associate Chief Counsel, Food and
Drug Administration.

Appendix A-2
Before: ROGERS and PILLARD, Circuit Judges, and
SENTELLE, Senior Circuit Judge.
Opinion of the Court by Circuit Judge ROGERS.
ROGERS, Circuit Judge: Less than a year ago, the
court rejected three challenges by an e-cigarette
manufacturer and distributor, and an e-cigarette
industry group to a rule deeming e-cigarettes to be
“tobacco products” subject to regulation under the
Family Smoking Prevention and Tobacco Control Act,
Pub. L. No. 111-31, 123 Stat. 1776 (2009) (“the Act”).
In Nicopure Labs, LLC v. FDA, 944 F.3d 267, 271
(D.C. Cir. 2019), the court held that it was “entirely
rational and nonarbitrary [for the Food and Drug
Administration (“FDA”)] to apply to e-cigarettes the
Act’s baseline requirement that, before any new
tobacco product may be marketed, its manufacturer
show the FDA that selling it is consistent with the
public health.” The court also rejected First
Amendment objections to the Act’s barring of claims
that e-cigarettes are safer than existing products
absent such a demonstration and ban on the
distribution of free e-cigarette samples. Id. at 272.
Now other e-cigarette manufacturers and retailers,
and a nonprofit organization focused on tobacco harm
reduction raise two constitutional challenges to the
rule. Under this court’s precedents, their
Appointments Clause challenge lacks merit and their
First Amendment challenge is foreclosed. Accordingly,
we affirm the grant of summary judgment to the FDA.
I.
The Act authorizes the Secretary of the
Department of Health and Human Services to
regulate the manufacture, sale, and distribution of

Appendix A-3
tobacco products. It permits the Secretary to deem
products to be “tobacco products” subject to the Act’s
requirements. 21 U.S.C. § 387a(b) (2018). One such
requirement is the preclearance pathway for
manufacturers seeking to market a “modified risk
tobacco product,” defined as “any tobacco product that
is sold or distributed for use to reduce harm or the risk
of
tobacco-related
disease
associated
with
commercially marketed tobacco products.” Id.
§ 387k(b)(1). Under the Act, a modified risk tobacco
product may be commercially marketed only if the
Secretary determines that the manufacturer has
demonstrated that the product, as actually used by
consumers, meets two requirements. Id. § 387k(g)(1).
First, the product will “significantly reduce harm and
the risk of tobacco-related disease to individual
tobacco users.” Id. § 387k(g)(1)(A). Second, it will
“benefit the health of the population as a whole taking
into account both users of tobacco products and
persons who do not currently use tobacco products.”
Id. § 387k(g)(1)(B).
The Secretary of the Department delegated
rulemaking authority to the FDA Commissioner. See,
e.g., FDA Staff Manual Guide § 1410.10 (Aug. 26,
2016); id. § 1410.10 (Nov. 17, 2015). The FDA
Commissioner, in turn, redelegated rulemaking
authority to the FDA Associate Commissioner for
Policy. See id. § 1410.21(1)(G) (July 5, 2012).
According to the 2012 FDA Staff Manual Guide, the
Associate Commissioner for Policy had the authority
to “perform any of the functions of the Commissioner
with respect to the issuance of [Federal Register]
notices and proposed and final regulations of the Food
and Drug Administration.” Id.

Appendix A-4
In April 2014, the FDA published a proposed rule
to deem e-cigarettes, among other items, “tobacco
products” under the Act. See 79 Fed. Reg. 23,142,
23,143 (Apr. 25, 2014). The comment period was
extended until August 8, 2014. See id. at 35,711
(June 24, 2014). After considering comments, FDA
Associate Commissioner for Policy Leslie Kux
promulgated a rule in May 2016 that deemed ecigarettes to be “tobacco products” subject to the Act’s
requirements. See Deeming Products To Be Subject to
the Federal Food, Drug, and Cosmetic Act, as
Amended by the Family Smoking Prevention and
Tobacco Control Act, 81 Fed. Reg. 28,974, 28,976
(May 10, 2016) (codified at 21 C.F.R. §§ 1100, 1140,
1143) (“Deeming Rule”).
On January 30, 2018, appellants sued the FDA
challenging the Deeming Rule under the
Appointments Clause and the First Amendment of the
Constitution. The district court, exercising its
discretion to consider the Appointments Clause
challenge even though it was not raised during the
rulemaking, granted summary judgment to the FDA.
Appellants appeal, and our review is de novo, see Mayo
v. Reynolds, 875 F.3d 11, 19 (D.C. Cir. 2017).
II.
The Appointments Clause requires that “all . . .
Officers of the United States” be appointed by the
President “by and with the Advice and Consent of the
Senate.” U.S. CONST. art. II, § 2, cl. 2. “This
requirement is the ‘default manner of appointment,’
Edmond v. United States, 520 U.S. 651, 660, 117 S. Ct.
1573, 137 L.Ed.2d 917 (1997), with the only exception
being that Congress may vest the appointment of
‘inferior Officers’ in ‘the President alone,’ ‘Courts of

Appendix A-5
Law,’ and ‘the Heads of Departments,’ U.S. CONST.
art. II, § 2, cl. 2.” Guedes v. Bureau of Alcohol, Tobacco,
Firearms & Explosives, 920 F.3d 1, 11 (D.C. Cir. 2019).
Appellants contend that the position of Associate
Commissioner for Policy may be filled by only a
properly appointed officer of the United States, and
that Kux was not appointed as either an inferior or
principal officer. They maintain that Kux’s issuance of
the Deeming Rule was consequently in violation of the
Appointments Clause and void ab initio. See
Appellants’ Br. 49–60. The FDA rejects the challenge
to Kux’s authority and points further to ratifications
of the Deeming Rule by FDA Commissioners Robert
Califf and Scott Gottlieb. Either ratification, it
maintains, suffices to render the Rule constitutional.
See Appellees’ Br. 16–27, 31–38.
“Ratification occurs when a principal sanctions
the prior actions of its purported agent.” Doolin Sec.
Sav. Bank, F.S.B. v. Office of Thrift Supervision, 139
F.3d 203, 212 (D.C. Cir. 1998) (citing RESTATEMENT
(SECOND) OF AGENCY § 82 (1958)), superseded by
statute on other grounds, Federal Vacancies Reform
Act of 1998, Pub. L. No. 105-277, 112 Stat. 2681 (1998)
(codified at 5 U.S.C. §§ 3345 to 3349d), as this court
recognized in Guedes, 920 F.3d at 13. This court has
repeatedly recognized that ratification can remedy a
defect arising from the decision of an improperly
appointed official, such as the alleged defect arising
from the issuance of the Deeming Rule by Associate
Commissioner for Policy Kux. Wilkes-Barre Hosp. Co.,
LLC v. NLRB, 857 F.3d 364, 371 (D.C. Cir. 2017)
(citing Intercollegiate Broad. Sys., Inc. v. Copyright
Royalty Bd., 796 F.3d 111, 117–21, 124 (D.C. Cir.
2015)). Even assuming for purposes of argument, as

Appendix A-6
appellants object, that Kux’s issuance of the Deeming
Rule violated the Appointments Clause and that
Commissioner Califf’s general ratification of prior
actions by the FDA as part of an agency
reorganization was invalid, Commissioner Gottlieb’s
ratification cured any Appointments Clause defect.
A.
On April 3, 2019, noting that the “authority under
which the Deeming Rule was issued has been
questioned in litigation,” then-FDA Commissioner
Scott Gottlieb stated: “To resolve these questions, I
hereby affirm and ratify the Deeming Rule as of the
date it was published in the Federal Register on
May 10, 2016, including all regulatory analysis
certifications contained therein.” Ratification of the
Deeming Rule, 81 Fed. Reg. 28,974 (May 10, 2016)
(signed by Scott Gottlieb, M.D., on Apr. 3, 2019). He
specified: “I undertake this action based on my careful
review of the rule, my knowledge of its provisions, and
my close involvement in policy matters relating to this
rule and its implementation, as well as its public
health importance.” Id.
Appellants’ challenges to the effectiveness of
Commissioner Gottlieb’s ratification fail. They
maintain that Commissioner Gottlieb lacked the
authority to ratify the Deeming Rule after they filed
suit in federal district court. Even assuming this
challenge is not forfeited by their failure to raise it in
the district court, see Salazar ex rel. Salazar v. District
of Columbia, 602 F.3d 431, 437 (D.C. Cir. 2010),
appellants fail to distinguish FEC v. Legi-Tech, Inc.,
75 F.3d 704, 707–09 (D.C. Cir. 1996), where the court
held that the Federal Election Commission effectively
ratified its prior actions even though its ratification

Appendix A-7
occurred after Legi-Tech alleged an Appointments
Clause violation.
Appellants further maintain that “Commissioner
Gottlieb lacked the power to issue the Deeming Rule
in April 2019 because to do so would have been
arbitrary and capricious.” Appellants’ Br. 28. In
appellants’ view, for ratification to be effective, a
ratifying party “should be able not merely to do the act
ratified at the time the act was done, but also at the
time the ratification was made.” Id. (quoting FEC v.
NRA Political Victory Fund, 513 U.S. 88, 98 (1994)).
Relying on Butte County v. Hogen, 613 F.3d 190 (D.C.
Cir. 2010), for the proposition that administrative
officials must consider new evidence in order to make
non-arbitrary, reasoned decisions, appellants note
that during the nearly three years between the
Deeming Rule’s issuance and Commissioner Gottlieb’s
ratification, “dozens of public comments submitted to
FDA had pointed the Commissioner to a wealth of new
evidence regarding the benefits of vaping to public
health.” Appellants’ Br. 30. Butte County does not
advance appellants’ position. In that case, the agency
failed to consider a report that was submitted while
the “issue was still pending before the Secretary.”
Butte County, 613 F.3d at 195. Here, the rulemaking
record closed in 2016 and consequently Commissioner
Gottlieb had no such obligation to consider new
evidence in 2019. Therefore, it was not arbitrary and
capricious for him to ratify the Deeming Rule without
considering the new evidence that appellants
reference.
Furthermore, nothing in the record indicates that
Commissioner Gottlieb, when he ratified the Deeming
Rule, failed “to conduct an independent evaluation of

Appendix A-8
the merits,” Intercollegiate Broadcasting, 796 F.3d at
117, or to make “a detached and considered
judgment,” Doolin Sec., 139 F.3d at 213. Nor do
appellants suggest that Commissioner Gottlieb was
“actually biased.” Legi-Tech, 75 F.3d at 709.
Because Commissioner Gottlieb effectively
ratified the Deeming Rule, the court need not consider
appellants’ Appointments Clause objections to
Commissioner Califf’s ratification or to Associate
Commissioner for Policy Kux’s issuance of the Rule.
Given that the Act does not mandate administrative
exhaustion as a prerequisite to judicial review, the
court also need not address the FDA’s alternative
contention
that
appellants
forfeited
their
Appointments Clause claim by failing to raise it before
the agency. See Darby v. Cisneros, 509 U.S. 137, 147
(1993); 21 U.S.C. § 387l (2018).
B.
Notwithstanding
Commissioner
Gottlieb’s
effective ratification, appellants contend that
Appointments Clause violations are per se harmful,
not curable by ratification, and so the court should
consider the merits of their challenge to the Deeming
Rule and the asserted “continuing prejudice” they
suffer. Appellants’ Br. 41–46. They suggest that a
different notice-and-comment process might “affect
the contents or even the existence of a new Deeming
Rule” in view of the “new evidence accumulated since
the Deeming Rule’s issuance” and the “FDA’s postpromulgation guidances . . . [that] have effectively,
though only informally, eased some of the original
Deeming Rule’s effects.” Id. at 42–45. In Legi-Tech, 75
F.3d at 708–09, this court rejected the view that
prejudice must be presumed for Appointments Clause

Appendix A-9
violations.
Subsequently,
in
Intercollegiate
Broadcasting, 796 F.3d at 124, the court emphasized
that “not every possible kind of taint is fatal” and that
“speculative taint” such as the possibility that an
invalid action was subsequently affirmed “simply out
of agency solidarity” is insufficient.
Appellants
demonstrate
no
“continuing
prejudice.” In the preamble to the Rule, the FDA
acknowledged that there was uncertainty about the
health effects of e-cigarettes, but concluded that the
regulation of e-cigarettes “will still benefit public
health” even if e-cigarettes “may eventually be shown
to have a net benefit on or harm to public health at the
population level.” Deeming Rule, 81 Fed. Reg. 28,974,
28,984 (May 10, 2016). Absent record evidence of
continuing
prejudice,
the
court
will
take
Commissioner Gottlieb’s ratification “at face value
and treat it as an adequate remedy.” Wilkes-Barre
Hosp., 857 F.3d at 372 (quoting Legi-Tech, 75 F.3d at
709).
Contrary to appellants’ suggestion that
ratification of an action “merely moots an
Appointments Clause claim, and the voluntary
cessation exception to mootness applies,” Appellants’
Br. 46, this court has “repeatedly held that a properly
appointed official’s ratification of an allegedly
improper official’s prior action, rather than mooting
the claim, resolves the claim on the merits by
‘remedy[ing] [the] defect’ (if any) from the initial
appointment.” Guedes, 920 F.3d at 13 (quoting WilkesBarre Hosp., 857 F.3d at 371). Commissioner
Gottlieb’s ratification, for the reasons discussed, cured
any potential Appointments Clause defect arising

Appendix A-10
from Associate Commissioner for Policy
issuance of the Deeming Rule.

Kux’s

II.
Appellants
further
challenge
the
Act’s
preclearance pathway for modified risk tobacco
products, which the Deeming Rule makes applicable
to e-cigarettes, as violative of the First Amendment.
This challenge is foreclosed by Nicopure Labs, LLC,
944 F.3d 267. There, the court found unpersuasive the
objection that appellants make now, namely that the
Deeming Rule violates the First Amendment because
it places the burden on manufacturers to show that
certain of their marketing claims are truthful and not
misleading before they make them. See id. at 282–90;
Appellants’ Br. 60–64. The court sustained the
preclearance pathway even when applied to modifiedrisk statements that manufacturers insist are
“accurate” — such as claims that e-cigarettes contain
less of or are free of specified ingredients — because
“modified risk claims that might be technically
accurate if viewed in isolation are in fact often
misunderstood by consumers.” Id. at 287.
Accordingly, we affirm the grant of summary
judgment to the FDA.

Appendix B-1
Filed 02/11/2020
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA

MOOSE JOOCE, et al.,
Plaintiffs,
v.
FOOD AND DRUG
ADMINISTRATION,
et al.,

Case No. 18-cv-203
(CRC)

Defendants.
RAVE SALON, INC.
d/b/a JOOSIE VAPES,
Plaintiff,
v.
FOOD AND DRUG
ADMINISTRATION,
et al.,

Case No. 18-cv-1615
(CRC)

Defendants.
JEN HOBAN
d/b/a MASTERPIECE
VAPORS, et al.,
Plaintiffs,
v.
FOOD AND DRUG
ADMINISTRATION,
et al.,
Defendants.

Case No. 19-cv-372
(CRC)

Appendix B-2
MEMORANDUM OPINION
Responding to the public health risks posed by
dramatic increases in vaping, especially among teens,
the Food and Drug Administration in 2016 exercised
its statutory authority to regulate electronic
cigarettes.1 It did so by issuing a final rule that
deemed e-cigarettes to be “tobacco products” subject to
regulation under the Family Smoking Prevention and
Tobacco Control Act, Pub. L. No. 111-31, 123 Stat.
1776 (2009) (“Tobacco Control Act”). As a result of this
“Deeming Rule,” e-cigarettes are now subject to all the
same types of regulations as traditional cigarettes,
including restrictions on advertising, a ban on sales to
minors, and requirements for nicotine warnings on
packaging and advertisements.
In these consolidated cases, a collection of ecigarette manufacturers and retailers challenge the
Deeming Rule under the Appointments Clause and
the First Amendment of the U.S. Constitution. First,
they contend that the rule violates the Appointments
Clause because the FDA official who signed it was
neither a Senate-confirmed “principal officer” nor a
duly appointed and supervised “inferior officer.” The
Court will reject Plaintiffs’ challenge. Since the
Deeming Rule was issued, two Senate-confirmed FDA
Commissioners have ratified it. These ratifications
were effective and cured any potential Appointments
1 This Opinion uses the term “e-cigarettes” to refer to all
electronic nicotine delivery systems (ENDS) deemed to be
tobacco products by the FDA, such as e-cigars, e-hookah, vape
pens, personal vaporizers, and electronic pipes. See 81 Fed. Reg.
28,974, 29,028 (May 10, 2016); APP 306. These products include
both “cigalikes,” which mimic traditional cigarettes, and
electronic devices that resemble everyday objects like flash
drives.

Appendix B-3
Clause defect in the rule’s issuance. Because it
upholds the ratifications, the Court need not decide
the merits of Plaintiffs’ constitutional argument.
Second, Plaintiffs argue that a pre-clearance
requirement in the Tobacco Control Act now
applicable to e-cigarettes violates the First
Amendment because it places the burden on
manufacturers to show that certain of their marketing
claims are truthful and not misleading before they
may make them. Since this case was filed, the D.C.
Circuit issued an opinion in Nicopure Labs, LLC v.
FDA, 944 F.3d 267 (D.C. Cir. 2019), on a substantially
similar claim. The Court finds that Nicopure Labs
directly controls the question raised here and requires
dismissal of Plaintiff’s First Amendment challenge.
I.

Background

The Tobacco Control Act gives the Secretary of
Health and Human Services authority to regulate four
enumerated categories of tobacco products—namely
“all cigarettes, cigarette tobacco, roll-your-own
tobacco, and smokeless tobacco”—as well as “any
other tobacco products that the Secretary by
regulation deems to be subject to this subchapter.” 21
U.S.C. § 387a(b). The HHS Secretary delegated this
ability to “deem” tobacco products subject to the Act to
the FDA Commissioner, who then sub-delegated that
authority to the FDA’s Assistant Commissioner for
Policy (“ACP”).2 See 21 U. S.C. § 393(d)(2)(E)
2 The
position has since been renamed the Associate
Commissioner for Policy as a part of an agency reorganization.
This Opinion will use “ACP” to refer to both the Assistant
Commissioner and the Associate Commissioner as those
positions had the same relevant responsibility, namely to
promulgate rules for the FDA under the Tobacco Control Act.

Appendix B-4
(permitting the HHS Secretary to delegate “such other
functions as the Secretary may prescribe”); 2015 FDA
Staff Manual Guide (“SMG”) § 1410.10(1)(A)(14), J.A.
20 (delegation of authority to Commissioner); 2015
SMG § 1410.l0(l)(A), J.A. 19 (delegation of authority
to ACP). The HHS Secretary expressly “reserve[d] the
authority to approve regulations of the FDA” that
“establish procedural rules applicable to a general
class” or “present highly significant public issues.”
2015 SMG § 1410.10(2)(A), J.A. 20. The FDA
Commissioner, in turn, reserved the power to
“continue to exercise all delegated authority.” 2012
SMG § 1410.21(1)(G)(l), J.A. 43; id. § 1410.21(1)(A),
J.A. 40.
In 2014, the FDA issued a Notice of Proposed
Rulemaking, signed by the ACP, seeking comments on
its plan to deem all tobacco products, including ecigarettes, subject to regulation under the Tobacco
Control Act. 80 Fed. Reg. 23,141 (Apr. 25, 2014), J.A.
141. At least one of the Plaintiffs here submitted a
comment to the FDA, arguing that the proposed rule
did not take into account the positive benefits of ecigarette use (or “vaping”) and did not appropriately
tailor the regulations to the retail vaping industry in
light of those benefits. Dennisa Moore, Joosie Vapes
Inc., Comment Letter on Proposed Rule Deeming
Tobacco Products to be Subject to the FDCA as
amended by the Family Smoking Prevention and
Tobacco Control Act (Aug. 6, 2014), J.A. FDA 12527274. None of the more than 135,000 commenters
challenged the ACP’s authority to sign the proposed
or final rule.
The final Deeming Rule, also signed by the ACP,
was issued two years later. 81 Fed. Reg. at 28,973-

Appendix B-5
29,106, J.A. 252-384. In response to comments
received on the proposed rule, the FDA considered “a
robust body of scientific evidence about the uses and
risks of e-cigarettes,” Nicopure Labs, 944 F.3d at 273.
This evidence included studies showing that ecigarettes have the potential ability to help adults quit
smoking conventional cigarettes, as well as studies
indicating that young people who vape are more likely
to begin smoking cigarettes. 81 Fed. Reg. at 29,03641, J.A. 314-19. Balancing all the evidence, the FDA
decided that risks of nicotine addiction for nonsmoking youth outweighed the purported (and
disputed) benefits of smoking cessation for adults. Id.
The Deeming Rule subjects e-cigarettes to the
Tobacco Control Act and regulates their distribution,
marketing, and labeling in two general ways: first, to
reduce youth access, it bans sales to people under 18,
requires ID checks for people under 26, and bans
vending machine sales except in adult-only facilities,
81 Fed. Reg. at 29,057, J.A. 335; second, to inform
consumers of the consequences of using the product, it
requires packages and advertisements to contain a
warning about the addictive nature of nicotine, 81
Fed. Reg. at 29,060, J.A. 338. In addition, several
provisions in the Tobacco Control Act and its
implementing regulations automatically applied to ecigarettes upon issuance of the final rule, such as
regulations on misbranding, ingredient lists, and free
samples. 81 Fed. Reg. at 29,051, J.A. 329. One
provision now applicable to e-cigarettes specifically
challenged here is the Tobacco Control Act’s preclearance requirement for “modified risk products.”
The Act places the burden on a manufacture to show
that a tobacco product “is safer than other tobacco
products” before it may market it as such. The Act

Appendix B-6
requires manufacturers “to substantiate such claims
with evidence of their overall public health effects in
advance of marketing, and to show that the proposed
product as marketed will not mislead consumers as to
its safety.” Nicopure Labs, 944 F.3d at 284.
Since its issuance, the Deeming Rule has been
ratified
by
two
Senate-confirmed
FDA
Commissioners.
In
September
2016,
FDA
Commissioner Robert Califf ratified all of the agency’s
prior actions—including the Deeming Rule—as a part
of a broad agency reorganization. J.A. 144. And after
this litigation began, Commissioner Scott Gottlieb
specifically ratified the Deeming Rule in April 2019.
J.A. 231. He wrote:
I hereby affirm and ratify the Deeming Rule
as of the date it was published in the Federal
Register on May 10, 2016, including all
regulatory analysis certifications contained
therein. I undertake this action based on my
careful review of the rule, my knowledge of its
provisions, and my close involvement in policy
matters relating to this rule and its
implementation, as well as its public health
importance.
Id.
According to Plaintiffs, between the time of the
Rule’s promulgation and the Commissioners’
ratifications, several additional studies showed that ecigarettes may help adults quit smoking cigarettes
and reduce the adverse health effects of cigarettes. See
Pls.’ Opening Br. at 31-33 (citing studies). Other
studies, Plaintiffs say, showed that certain
regulations, which result in higher e-cigarette prices,

Appendix B-7
have the effect of increasing the number of young
people who smoke conventional cigarettes. Id. at 34.
Also during this interim period, the FDA issued
guidance documents that have adjusted some of the
compliance deadlines in the final rule. Id.
Three sets of plaintiffs filed suit against the FDA
alleging that the ACP was not appointed consistent
with the Appointments Clause and, therefore, that
her execution of the notice of proposed rulemaking
and the final rule requires the court to “set aside” the
Deeming Rule. See, e.g., Moose Jooce Compl. ¶¶ 50-52
(quoting APA § 706(2)(A)). The parties have filed
cross-motions for summary judgment on that issue.
The Court held a hearing on October 22, 2019.
Plaintiffs also challenge the premarket review
requirement for “modified risk tobacco products”
under the First Amendment. See, e.g., Moose Jooce
Compl. ¶¶ 54-57. The Court stayed briefing on that
issue to await the D.C. Circuit’s ruling on a
substantially similar issue in Nicopure Labs. See
Minute Order, June 8, 2018. After the D.C. Circuit
decided that case in early December 2019, the Court
asked the parties whether additional briefing was
required. Plaintiffs responded that further briefing is
necessary because the issue decided by the Circuit is
distinguishable from the issues raised here, while the
FDA maintained that the Circuit’s opinion clearly
forecloses Plaintiffs’ First Amendment claim. See
Joint Status Report (“JSR”) (Dec. 17, 2019), ECF 42.
II. Legal Standards
Summary judgment may be granted when “there
is no genuine issue as to any material fact and the
movant is entitled to judgment as a matter of law.”

Appendix B-8
Fed. R. Civ. P. 56(a). Whether an agency action
violates the Appointments Clause is a pure question
of law that is properly decided by summary judgment.
See, e.g., Estes v. U.S. Dep’t of the Treasury, 219 F.
Supp. 3d 17, 38-39 (D.D.C. 2016); see also 5 U.S.C.
§ 706(2)(A) (requiring courts to “hold unlawful and set
aside agency action, findings, and conclusions found
to be . . . arbitrary, capricious, an abuse of discretion,
or otherwise not in accordance with law”).
III. Analysis
A. The Appointments Clause
1. Forfeiture
As a threshold matter, the FDA contends that
Plaintiffs forfeited their Appointments Clause
challenge by not raising it during the rule’s noticeand-comment period. Gov’t’s Cross-Mot. for Partial
Summ. J. 18-20. They agency is correct that generally
“a party must initially present its comments to the
[relevant] agency during the rulemaking in order for
the court to consider the issue,” Tex Tin Corp. v. EPA,
935 F.2d 1321, 1323 (D.C. Cir. 1991), and that
“[s]imple fairness . . . requires as a general rule that
courts should not topple over administrative decisions
unless the administrative body . . . has erred against
objection made at the time” of its decision, Advocates
for Highway & Auto Safety v. Fed. Motor Carrier
Safety Admin., 429 F.3d 1136, 1150 (D.C. Cir. 2005)
(quoting United States v. L.A. Tucker Truck Lines,
Inc., 344 U.S. 33, 37 (1952)). Appointments Clause
claims are not immune from forfeiture. See, e.g.,
Intercollegiate Broad. Sys., Inc. v. Copyright Royalty
Bd., 574 F.3d 748, 755-56 (D.C. Cir. 2009)
(“Intercollegiate I”) (declining to consider an

Appendix B-9
Appointments Clause challenge not raised in opening
appellate brief).
But courts have discretion to consider an untimely
objection in “rare cases.” Freytag, 501 U.S. at 879
(explaining, in the context of an agency adjudication,
that avoiding “the disruption to sound appellate
process entailed by entertaining objections not raised
below does not always overcome what Justice Harlan
called ‘the strong interest of the federal judiciary in
maintaining the constitutional plan of separation of
powers.’” (quoting Glidden Co. v. Zdanok, 370 U.S.
530, 535-536 (1962) (Harlan, J., plurality opinion))).
The Court chooses it exercise its discretion here.
Unlike the appellant in Intercollegiate I, Plaintiffs
have offered a reason to “depart from [the] normal
forfeiture rule” and have offered a strong “justification
for its delay.” 574 F.3d at 756. Rulemaking is different
from adjudication. See Citizens Coal Council v. EPA,
447 F.3d 879, 904 n.25 (6th Cir. 2006) (noting that
forfeiture rules “should not be applied freely in both”
rulemaking and adjudication contexts, “given the
fundamental differences between the two endeavors”).
Even though the forfeiture rules may apply in both
contexts, Styrene Info. & Research Ctr. v. Sebelius, 994
F. Supp. 2d 71, 79 (D.D.C. 2013), and parties surely
can forfeit arguments not made before the agency
during a comment period, see, e.g., Advocates for
Highway & Auto Safety, 429 F.3d at 1150, the
differences between rulemaking and adjudication
counsel for a more lenient rule for unrepresented
commenters who later wish to raise a separation-ofpowers argument. Interested parties who are not
attorneys or represented by counsel will naturally
submit comments focusing on the rule’s potential
impact on them. It would be unfair to require them to

Appendix B-10
raise esoteric legal arguments with the agency or else
be prevented later from arguing them to a court,
especially when those arguments relate to important
separation-of-powers issues. Compare Intercollegiate
I, 574 F.3d at 755-56 (applying forfeiture rules to a
represented party who failed to raise its Appointments
Clause challenge in an agency adjudication or its
opening brief in federal court). Any prejudice to the
agency pales in comparison to the unfairness to
Plaintiffs, particularly considering the FDA can
rectify any Appointments Clause problem through an
effective ratification after litigation is commenced, see
Part III.B., supra.
In the absence of any indication that Plaintiffs
were represented during the comment period, see Mot.
Hr’g Tr. 27:11-15 (Oct. 22, 2019) (rough), the Court
will exercise its discretion to consider their
Appointments Clause claim.
2. Ratification
a. Merits
Plaintiffs contend that the Deeming Rule is
invalid because it was promulgated by an FDA
employee who had not been properly appointed as an
officer of the United States and therefore lacked
authority under the Appointments Clause to issue
binding agency rules. But the Deeming Rule was
ratified by two different FDA Commissioners after its
publication in May 2016, and the D.C. Circuit has
repeatedly held that an agency’s ratification of a prior
decision or action cures any potential Appointments
Clause violation if “a properly appointed official has
the power to conduct an independent evaluation of the
merits and does so.” Intercollegiate Broad. Sys. v.

Appendix B-11
Copyright Royalty Bd., 796 F.3d 111, 117 (D.C. Cir.
2015) (“Intercollegiate III”) (citing FEC v. Legi-Tech,
Inc., 75 F.3d 704 (D.C. Cir. 1996) and Doolin Security
Savings Bank v. Office of Thrift Supervision, 139 F.3d
203 (D.C. Cir. 1998)); see also Wilkes-Barre Hospital
Co. v. NLRB, 857 F.3d 364, 371 (D.C. Cir. 2017). It is
the Plaintiffs’ burden to present evidence—beyond the
mere fact of ratification—“to suggest that the [agency]
failed to conduct an independent evaluation of the
merits or make a detached and considered judgment.”
Wilkes Barre, 857 F.3d at 371 (internal quotation
marks omitted). An “independent judgment” does not
require the ratifier to “return to square one” of the
administrative process. Rather, “the better course” for
courts is to take the ratification “at face value and
treat it as an adequate remedy” for an Appointments
Clause violation. Legi-Tech, 75 F.3d at 708-09
(refusing to “forc[e] the [agency] to start at the
beginning of the administrative process”). The test is
akin to “harmless error” under the APA. Doolin, 139
F.3d at 212-13 (explaining that the test for whether
ratification is an adequate remedy “echoes the
harmless error analysis” that “stems from the last
sentence of § 706 of the Administrative Procedure Act:
on judicial review of agency action, ‘due account shall
be taken of the rule of prejudicial error’”). Under this
test, Plaintiffs bear the burden of providing evidence
that the results of redoing the notice-and-comment
process would yield a different result. Id.
In making that determination, the D.C. Circuit
has instructed district courts not to look behind the
ratification “notwithstanding the possibility” that it is
merely a “rubberstamp” of the prior decision.
Intercollegiate III, 796 F.3d at 118 n.1; see also Doolin,
at 213 (holding that courts should find a ratification

Appendix B-12
effective even if it has “misgivings” about whether
there was a “real fresh deliberation”). To succeed,
Plaintiffs must provide evidence of “continuing
prejudice” of the alleged error after the ratification,
“and whether that degree of prejudice—if it exists—
requires dismissal.” Legi-Tech, 75 F.3d at 708; see
Intercollegiate III, 796 F.3d at 124 (“[T]he subsequent
proceeding is constitutionally suspect only if there is
sufficient continuing taint arising from the first.”).
The Circuit has also cautioned against examining
internal agency deliberations regarding the
ratification “absent a contention” that the ratifier was
“actually biased.” Legi-Tech, 75 F.3d at 709.
Plaintiffs argue that the highly deferential
standard of review that the Circuit established for
agency ratifications in the cases cited above, all of
which involved enforcement actions or adjudications,
does not apply in the context of rulemakings like the
one at issue here. Pls.’ Reply/Opp’n 19-22.
Rulemakings should be treated differently, Plaintiffs
say, because the APA’s procedural rulemaking
requirements, including notice and opportunity for
comment, continue until the moment of ratification.
Id. The Court is not persuaded. Plaintiffs offer no
reason—other than the existence of APA procedures—
for differentiating between ratifications of rules and
ratifications of enforcement decisions or agency
adjudications. Adjudications are also covered by a
host of APA procedures, yet the Circuit has applied its
ratification doctrine to agency adjudications as well.
See Intercollegiate III, 796 F.3d at 119. Up to that
point, the Circuit had only approved ratifications in
the enforcement context, but it rejected the notion
that the type of agency proceeding mattered. Id. And
it has since implied—though did not outright decide—

Appendix B-13
that rulemaking ratifications should be treated the
same way. See Guedes v. Bureau of Alcohol, Tobacco,
Firearms and Explosives, 920 F.3d 1, 12 (D.C. Cir.
2019) (accepting the parties’ agreement that the
ratification was effective to cure an Appointments
Clause problem with a rulemaking).
Further, all the district courts in this District that
have confronted the issue have applied the Circuit’s
ratification doctrine to rulemakings and have not
required agencies to undergo the entire APA noticeand-comment processes anew before upholding
otherwise effective ratifications. These courts have
consistently held that a rulemaking “that would
otherwise be unlawful due to procedural or technical
defects . . . can be cured through a subsequent lawful
ratification of that action.” Alfa Int’l Seafood v. Ross,
No. 17-cv-31, 2017 WL 3738397, at *1 (D.D.C.
June 22, 2017) (Mehta, J.) (explaining that the court
would accept a general post-litigation “statement
[from the agency] acknowledging that [it] would repromulgate the Rule in the same manner, even if it
were required to re-start the notice and comment
process”); see also State Nat’l Bank of Big Spring v.
Lew, 197 F. Supp. 3d 177, 179-80 (D.D.C. 2016)
(Huvelle, J.) (rejecting the notion that a ratification of
a rulemaking requires the agency to redo the full
APA’s notice-and-comment procedures because,
“regardless of the type of administrative action, [D.C.
Circuit] decisions have consistently declined to impose
formalistic procedural requirements before a
ratification is deemed to be effective”); Huntco Pawn
Holdings, LCC v. U.S. Dep’t of Defense, 240 F. Supp.
3d 206, 232 (D.D.C. 2016) (Kollar-Kotelly, J.) (holding
that that a ratification submitted to the court by a
properly appointed official settles “any serious dispute

Appendix B-14
that the Final Rule, as published, reflects the
decisions of the agency with authority to promulgate
it”).
Here, the ratifications by both Commissioner
Califf and Commissioner Gottlieb cured any potential
Appointments Clause issue with the promulgation of
the Deeming Rule.
First, both ratifying Commissioners made “a
detached and considered judgment” of the Deeming
Rule. See Wilkes-Barre, 857 F.3d at 371.
Commissioner Gottlieb ratified the Deeming Rule
explicitly “based on [his] careful review of the rule,
[his] knowledge of its provisions, and [his] close
involvement in policy matters relating to this rule and
its implementation.” J.A. 231. He stated that he made
a detached and considered judgment, and Plaintiffs
have not provided any evidence to the contrary. The
Court must therefore take Commissioner Gottlieb’s
ratification “at face value.” Legi-Tech, 75 F.3d at 709.
And while perhaps a closer question, Commissioner
Califf s blanket ratification also meets the standards
set by the D.C. Circuit. In Wilkes-Barre, the Circuit
approved of a ratification of all “the actions taken
during the period in which the Board lacked a valid
quorum,” 857 F.3d at 271, which is substantially
similar to Commissioner Califf’s ratification of “any
actions taken . . . which in effect involved the
authorities delegated herein prior to the effective date
of this delegation,” J.A. 144. Plaintiffs’ counsel
correctly noted at the hearing that the inference of
“independent judgment” was stronger in Wilkes-Barre
because the ratifier was the same person—though
now validly appointed—who took the original actions.
See Mot. Hr’g Tr. 5:17-6:3 (Oct. 22, 2019) (rough). But

Appendix B-15
again, the Circuit instructs that the independent
judgment of the ratifiers should be taken “at face
value,” unless a plaintiff provides contrary evidence.
Legi-Tech, 75 F.3d at 709. That evidence must be
something more than the mere fact that the decision
is being ratified. As Plaintiffs have not met that
burden, the Court will not look behind
Commissioner’s Califf’s blanket ratification either.
Second, Plaintiffs have not met their burden to
show that any Appointments Clause violation was
prejudicial in the sense that redoing the
administrative process would yield a different result.3
Plaintiffs’ primary contention of error is that neither
of the ratifying Commissioners discussed certain
studies that were published between the issuance of
the Deeming Rule and the later ratifications. Pls.’
MSJ 30-37. By failing to acknowledge these
intervening
studies,
Plaintiffs
argue,
the
Commissioners violated the basic APA rule requiring
Citing Legi-Tech, Plaintiffs assert that a court must find that it
is “virtually inconceivable” that a new administrative process
would yield a different result before it could accept a ratification.
Pls.’ Mot. for Partial Summ. J. 30-31 (“Pls.’ MSJ”); Pls.’
Reply/Opp’n 25-27. But the Circuit did not create such a
stringent test in Legi-Tech. In explaining why requiring an
agency to redo the administrative process is not the correct
remedy, the Circuit merely noted that “[e]ven were the
Commission” to do so in that case, “it is virtually inconceivable
that its decisions would differ in any way the second time from
that which occurred the first time.” Legi-Tech, 75 F.3d at 708
(citing cases that explain that “remand to the agency is an
unnecessary formality where the outcome is clear”). The panel
was merely explaining why, in light of “human nature,” it would
not generally be the case that the result of a redo of the
administrative process would be different. Id. at 709. Based on
that understanding, the Circuit held that “return[ing] to square
one” is not required for an effective ratification. Id. at 708.

3

Appendix B-16
agencies to consider important aspects of the problem
before them. But Plaintiffs conflate ratification
doctrine with APA requirements prior to agency
action. This explains why their principal reliance on
Butte County v. Hogen, 613 F.3d 190, 194 (D.C. Cir.
2010), is misplaced. There, the Secretary of Interior
issued a final decision to take into trust land on which
an Indian tribe wished to conduct gaming operations
based on a years-old legal opinion by the Department’s
Solicitor, while ignoring more recent evidence offered
by the plaintiffs. The Circuit found that the Secretary
had violated the APA by not considering relevant
information before issuing his decision. See id. at 19495. Butte County says little about the effectiveness of
a ratification, however. Agency ratifications, which by
definition come after a final action has been taken, are
not governed by standard APA rules. As discussed,
“regardless of the type of administrative action,
[Circuit] decisions have consistently declined to
impose formalistic procedural requirements before a
ratification is deemed to be effective.” State Nat’l
Bank, 197 F. Supp. 3d at 184.
It bears noting that the effective ratification of the
Deeming Rule does not prevent Plaintiffs from
petitioning the FDA to repeal or amend the rule in
light of the intervening studies. See 5 U.S.C. § 553(e)
(“Each agency shall give an interested person the
right to petition for the issuance, amendment, or
repeal of a rule.”); cf. CTS Corp. v. EPA, 759 F.3d 52,
65 (D.C. Cir. 2014) (denying review based on the
inability to comment on post-promulgation studies
being added to the final record because plaintiff “could
have petitioned the EPA for either reconsideration or
a new rulemaking, or to reopen the notice-andcomment period.”). If Plaintiffs are not satisfied with

Appendix B-17
the agency’s response, they can seek judicial review.
See id. §§ 702, 706; see also Shipbuilders Council of
Am. v. United States, 868 F.2d 452, 456 (D.C. Cir.
1989) (“The denial of . . . a [section 553(e)] petition is
subject to judicial review, provided that the petitioner
can establish the requisite article III standing.”).
In any case, the studies cited by Plaintiffs do not
give the Court pause about whether a new notice-andcomment period would have yielded different results.
See Doolin, 139 F.3d at 212-13.4 The FDA considered
studies that purported to show that e-cigarettes may
be effective as smoking cessation devices and
healthier in some respects than conventional
cigarettes. But it nevertheless concluded that ecigarettes “clearly have the potential to increase
tobacco use and net health costs for the public as a
whole.” Nicopure Labs, 944 F.3d at 275 (citing 81 Fed.
Reg. at 29,038). It is that ultimate conclusion which
led the FDA to deem e-cigarettes subject to the
Tobacco Control Act. Though the new studies
Plaintiffs raise here may add to the quantum of
evidence, there is no indication whatsoever that they
alone would have upset the balance struck by the
agency.
Finally, Plaintiffs have failed to show any
“‘continuing prejudice’ from the [alleged] violations.”
Wilkes-Barre, 857 F.3d at 372 (quoting Legi-Tech, 75
F.3d at 708-09). The Court will not presume that any
4 Plaintiffs also cite the FDA’s adjustment of compliance dates as
evidence that a new rulemaking would yield a different result.
Pls.’ Reply/Opp’n 26-27. But while the Court does not discount
the importance of compliance deadlines to the industry, that the
FDA has extended them says little about whether it would
reissue the substantive aspects of the rule.

Appendix B-18
taint from the alleged Appointments Clause violation
continued after the rule was ratified. Legi-Tech, 75
F.3d at 708. And there is no indication that either of
the ratifiers were “biased” by the alleged improper
promulgation of the rule. See Legi-Tech, 75 F.3d at
709; Wilkes-Barre, 857 F.3d at 372. Without such a
showing, the Court may not look behind the decisionmaking process that led to the ratifications. It must
take them “at face value and treat [them] as an
adequate remedy” for any potential Appointments
Clause violation. Legi-Tech, 75 F.3d at 709.
The Court therefore finds the ratifications
effective.
b. Ratification is Resolution on the Merits
Plaintiffs contend that their Appointments
Clause challenge survives even if the ratifications
were effective. They argue that ratifications in actions
challenging a rulemaking merely moot the case
(rather than operate as a decision on the merits) and
that the voluntary-cessation exception to mootness
applies to the ratifications here. Pls.’ MSJ 37-40.
Plaintiffs maintain that because there is no guarantee
that the FDA will not simply continue its purportedly
illegal practice of having the ACP sign final rules, the
Court retains jurisdiction notwithstanding the
effectiveness of the ratifications.
Again, Plaintiffs run headlong into D.C. Circuit
precedent. The Circuit has “repeatedly held that a
properly appointed official’s ratification of an
allegedly improper official’s prior action, rather than
mooting a claim, resolves the claim on the merits by
remedying the defect (if any) from the initial
appointment.” Guedes v. Bureau of Alcohol, Tobacco,

Appendix B-19
Firearms and Explosives, 920 F.3d 1, 13 (D.C. Cir.
2019) (cleaned up); see e.g., Wilkes-Barre, 857 F.3d at
371 (reaffirming that “[r]atification can remedy
defects arising from the decisions of improperly
appointed officials”). That rule make sense. Whether
the FDA issues future rules through an improperly
appointed officer is irrelevant to whether the Deeming
Rule—the only rule challenged here—is valid. It is
valid because it was ratified. Yet to be promulgated
rules, that may or may not pose Appointments Clause
concerns and may or may not affect these Plaintiffs,
must await a different case. A challenge to them is too
speculative in nature to be considered in this suit.
Plaintiffs can (and should) raise potential
Appointments Clause violations to the agency during
such future rules’ notice-and-comment periods to give
the FDA the chance to confront any problems before
they materialize.
Plaintiffs attempt to distinguish the wellestablished principle that ratification resolves
Appointments Clause issues on the merits by
highlighting that the relevant D.C. Circuit opinions
all involved defenses to enforcement actions as
opposed to independent, pre-enforcement challenges.
Pls.’ MSJ 37-38. That difference, to Plaintiffs,
warrants rejecting the general rule and finding that
the ratifications here merely moot their claim. Id.
Plaintiffs primarily rely on the Guedes panel’s
discussion of ratification and mootness, id. (quoting
Guedes, 920 F.3d at 12-17), but they read Guedes too
far. That case involved President Trump’s
appointment of Acting Attorney General Whitaker
under the Federal Vacancies Reform Act, after
Attorney General Sessions resigned and before
Attorney General Barr was nominated and confirmed.

Appendix B-20
Guedes, 920 F.3d at 9. Although most of the
rulemaking process at issue took place under General
Sessions, it was Acting General Whitaker who signed
the final rule. After General Barr was confirmed, he
announced—similar to Commissioner Gottlieb here—
that he had “independently reevaluate[d]” the rule
and the “underlying rulemaking record” and that he
“personally c[a]me to the conclusion that it is
appropriate to ratify and affirm the final rule.” Id. at
9. The Guedes plaintiffs conceded that the ratification
was effective, and the Circuit held—on appeal of a
denial of preliminary injunctive relief—that “with
th[e] act of ratification and the concession, [the
plaintiff’s] likelihood of success on the merits of his
challenge to the rule based on Acting Attorney
General Whitaker’s role in its promulgation reduces to
zero.” Id. at 12 (emphasis added). The ratification
meant that the plaintiffs would be unable to succeed
on the merits because the ratification resolved the
merits of their pre-enforcement Appointments Clause
challenge. Full stop. Admittedly, the panel went on to
address in dicta why the claim still lacked a likelihood
of success even if they were to adopt the proposed
analytical approach that ratification merely moots a
claim. Id. at 14-17. But the panel assuredly did not
adopt that approach, and its belt-and-suspenders
mootness discussion does nothing to alter or
undermine its fundamental holding, which this Court
is bound to apply: Ratification resolves potential
Appointments Clause errors on the merits. Id. at 13.
B. The First Amendment
Plaintiffs also challenge the rule under the First
Amendment. E.g. Moose Jooce Compl. ¶¶ 54-57. They
argue that the FDA’s premarket review of e-cigarettes

Appendix B-21
that purport to reduce harm or the risk of disease is
an impermissible restriction on commercial speech
because it puts the burden on speakers (i.e., ecigarette manufacturers) to prove that their
marketing materials are truthful and not misleading.
E.g. Moose Jooce Compl. ¶¶ 55-56. The Court stayed
the briefing on the First Amendment arguments
pending the D.C. Circuits ruling in a case raising
almost identically arguments. Once the Circuit issued
that ruling in early December 2019, see Nicopure
Labs, 944 F.3d 267 (D.C. Cir. 2019), the Court sought
the views of the parties on whether Plaintiffs’
arguments were now foreclosed or required further
briefing. The parties disagreed on how to proceed:
Plaintiffs argued that further briefing is required,
while Defendants argued that Nicopure Labs resolved
Plaintiffs’ arguments.
The Court concludes that Nicopure Labs
forecloses Plaintiffs’ First Amendment claim.
Plaintiffs maintain that Nicopure Labs is
distinguishable because it merely “give[s] FDA the
power to prohibit truthful, non-misleading speech if
such speech is determined not to significantly reduce
harm or to benefit the general public health” but does
not “address[] at all the constitutionality of the Act’s
placement of the burden of proof entirely on the
manufacturer-speaker, which is the focus of Plaintiffs’
First Amendment claim.” JSR, at 5. The Court
disagrees. The Circuit expressly held that “[p]lacing
an obligation on a manufacturer to demonstrate that
an e-cigarette is in fact safer before it may market it
as such easily” passes First Amendment scrutiny.
Nicopure Labs, 944 F.3d at 284; see also id. at 288
(rejecting several industry arguments that it claimed
FDA did not adequately considered because “[e]ach of

Appendix B-22
those suggestions seeks to place the onus on the
government, rather than the manufacturers”). The
Circuit quite clearly held that placing the burden on
manufacturers to substantiate their marketing claims
does not violate the First Amendment. Bound by that
precedent, the Court holds that the Tobacco Control
Act’s premarket review provisions do not
impermissibly burden speech.
IV. Conclusion
For the foregoing reasons, the Court will deny
Plaintiff’s Motion for Partial Summary Judgement
and grant the FDA’s Cross-Motion for Partial
Summary Judgment on the Appointments Clause
claim. The Court will also, sua sponte, grant Summary
Judgment for the FDA on Plaintiffs’ First Amendment
Claim. A separate Order shall accompany this
memorandum opinion.
s/ Christopher R. Cooper
CHRISTOPHER R. COOPER
United States District Judge
Date: February 11, 2020

Appendix C-1
Filed 02/11/2020
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA

MOOSE JOOCE, et al.,
Plaintiffs,
v.
FOOD AND DRUG
ADMINISTRATION,
et al.,

Case No. 18-cv-203
(CRC)

Defendants.
RAVE SALON, INC.
d/b/a JOOSIE VAPES,
Plaintiff,
v.
FOOD AND DRUG
ADMINISTRATION,
et al.,

Case No. 18-cv-1615
(CRC)

Defendants.
JEN HOBAN
d/b/a MASTERPIECE
VAPORS, et al.,
Plaintiffs,
v.
FOOD AND DRUG
ADMINISTRATION,
et al.,
Defendants.

Case No. 19-cv-372
(CRC)

Appendix C-2
ORDER
For the reasons stated in the accompanying
Memorandum Opinion, it is hereby
ORDERED that [26] Plaintiffs’ Motion for
Partial Summary Judgment is DENIED. It is further
ORDERED that [28] Defendants’ Cross-Motion
for Partial Summary Judgment is GRANTED on the
Appointments Clause Claim. It is further
ORDERED that Partial Summary Judgment is
GRANTED, sua sponte, for Defendants on the First
Amendment Claim.
This is a final appealable Order.
SO ORDERED.
s/ Christopher R. Cooper
CHRISTOPHER R. COOPER
United States District Judge
Date: February 11, 2020

Appendix D-1
U.S Const. art. II, § 2, cl. 2
He shall have Power, by and with the Advice and
Consent of the Senate, to make Treaties, provided two
thirds of the Senators present concur; and he shall
nominate, and by and with the Advice and Consent of
the Senate, shall appoint Ambassadors, other public
Ministers and Consuls, Judges of the supreme Court,
and all other Officers of the United States, whose
Appointments are not herein otherwise provided for,
and which shall be established by Law: but the
Congress may by Law vest the Appointment of such
inferior Officers, as they think proper, in the
President alone, in the Courts of Law, or in the Heads
of Departments.
21 U.S.C. § 387a(b)
(b) Applicability
This subchapter shall apply to all cigarettes,
cigarette tobacco, roll-your-own tobacco, and
smokeless tobacco and to any other tobacco products
that the Secretary by regulation deems to be subject
to this subchapter.
21 U.S.C. § 387j(a)(2)
(a) In general
*

*

*

*

*

(2) Premarket review required
(A) New products
An order under subsection (c)(1)(A)(i) for a new
tobacco product is required unless—

Appendix D-2
(i) the manufacturer has submitted a report
under section 387e(j) of this title; and the Secretary
has issued an order that the tobacco product—
(I) is substantially equivalent to a
tobacco product commercially marketed (other than
for test marketing) in the United States as of
February 15, 2007; and
(II) is in compliance with the requirements of this chapter; or
(ii) the tobacco product is exempt from the
requirements of section 387e(j) of this title pursuant
to a regulation issued under section 387e(j)(3) of this
title.
(B) Application to certain post-February 15, 2007,
products
Subparagraph (A) shall not apply to a tobacco
product—
(i) that was first introduced or delivered for
introduction into interstate commerce for commercial
distribution in the United States after February 15,
2007, and prior to the date that is 21 months after
June 22, 2009; and
(ii) for which a report was submitted under
section 387e(j) of this title within such 21-month
period,
except that subparagraph (A) shall apply to the
tobacco product if the Secretary issues an order that
the tobacco product is not substantially equivalent.

Appendix D-3
21 U.S.C. § 387k(b)(2)(A)
(b) Definitions
*

*

*

*

*

(2) Sold or distributed
(A) In general
With respect to a tobacco product, the term “sold or
distributed for use to reduce harm or the risk of
tobacco-related disease associated with commercially
marketed tobacco products” means a tobacco
product—
(i) the label, labeling, or advertising of
which represents explicitly or implicitly that—
(I) the tobacco product presents a
lower risk of tobacco-related disease or is less harmful
than one or more other commercially marketed
tobacco products;
(II) the tobacco product or its smoke
contains a reduced level of a substance or presents a
reduced exposure to a substance; or
(III) the tobacco product or its smoke
does not contain or is free of a substance;
(ii) the label, labeling, or advertising of
which uses the descriptors “light”, “mild”, or “low” or
similar descriptors; or
(iii) the tobacco product manufacturer of
which has taken any action directed to consumers
through the media or otherwise, other than by means
of the tobacco product’s label, labeling, or advertising,
after June 22, 2009, respecting the product that would
be reasonably expected to result in consumers

Appendix D-4
believing that the tobacco product or its smoke may
present a lower risk of disease or is less harmful than
one or more commercially marketed tobacco products,
or presents a reduced exposure to, or does not contain
or is free of, a substance or substances.
21 C.F.R. § 1100.1
In addition to FDA’s authority over cigarettes,
cigarette tobacco, roll-your-own tobacco, and
smokeless tobacco, FDA deems all other products
meeting the definition of tobacco product under
section 201(rr) of the Federal Food, Drug, and
Cosmetic Act, except accessories of such other tobacco
products, to be subject to the Federal Food, Drug, and
Cosmetic Act.
21 C.F.R. § 1100.2
Cigarettes, cigarette tobacco, roll-your-own
tobacco, smokeless tobacco are subject to chapter IX of
the Federal Food, Drug, and Cosmetic Act and its
implementing regulations. FDA has deemed all other
tobacco products, except accessories of such other
tobacco products, subject to chapter IX of the Federal
Food, Drug, and Cosmetic Act and its implementing
regulations.

Appendix E-1
81 FR 28973-01, 81 FR 28973-01,
2016 WL 2625201(F.R.)
RULES and REGULATIONS
DEPARTMENT OF HEALTH
AND HUMAN SERVICES
Food and Drug Administration
21 CFR Parts 1100, 1140, and 1143
[Docket No. FDA-2014-N-0189]
RIN 0910-AG38
Deeming Tobacco Products To Be Subject to the
Federal Food, Drug, and Cosmetic Act, as
Amended by the Family Smoking Prevention and
Tobacco Control Act; Restrictions on the Sale and
Distribution of Tobacco Products and Required
Warning Statements for Tobacco Products
Tuesday, May 10, 2016
AGENCY: Food and Drug Administration, HHS.
*28974 ACTION: Final rule.
SUMMARY: The Food and Drug Administration
(FDA) is issuing this final rule to deem products
meeting the statutory definition of “tobacco product,”
except accessories of the newly deemed tobacco
products, to be subject to the Federal Food, Drug, and
Cosmetic Act (the FD&C Act), as amended by the
Family Smoking Prevention and Tobacco Control Act
(Tobacco Control Act). The Tobacco Control Act
provides FDA authority to regulate cigarettes,
cigarette tobacco, roll-your-own tobacco, smokeless
tobacco, and any other tobacco products that the
Agency by regulation deems to be subject to the law.
With this final rule, FDA is extending the Agency’s
“tobacco product” authorities in the FD&C Act to all
other categories of products that meet the statutory

Appendix E-2
definition of “tobacco product” in the FD&C Act,
except accessories of such newly deemed tobacco
products. This final rule also prohibits the sale of
“covered tobacco products” to individuals under the
age of 18 and requires the display of health warnings
on cigarette tobacco, roll-your own tobacco, and
covered tobacco product packages and in
advertisements. FDA is taking this action to reduce
the death and disease from tobacco products. In
accordance with the Tobacco Control Act, we consider
and intend the extension of our authorities over
tobacco products and the various requirements and
prohibitions established by this rule to be severable.
DATES: This rule is effective August 8, 2016. See
section IV of this document regarding compliance
dates for certain provisions.
*

*

*

*

*

Dated: May 3, 2016.
Leslie Kux,
Associate Commissioner for Policy.
[FR Doc. 2016-10685 Filed 5-5-16; 8:45 am]

Appendix F-1
U.S. FOOD & DRUG
ADMINISTRATION
April 3, 2019
On May 10, 2016, the Food and Drug Administration
published in the Federal Register a final rule entitled
“Deeming Tobacco Products To Be Subject to the
Federal Food, Drug, and Cosmetic Act, as Amended by
the Family Smoking Prevention and Tobacco Control
Act; Restrictions on the Sale and Distribution of
Tobacco Products and Required Warning Statements
for Tobacco Products,” 81 Fed. Reg. 28,974 (the
“Deeming Rule”). The authority under which the
Deeming Rule was issued has been questioned in
litigation. To resolve these questions, I hereby affirm
and ratify the Deeming Rule as of the date it was
published in the Federal Register on May 10, 2016,
including all regulatory analysis certifications
contained therein. I undertake this action based on
my careful review of the rule, my knowledge of its
provisions, and my close involvement in policy
matters relating to this rule and its implementation,
as well as its public health importance. This action is
not intended to suggest any legal defect or infirmity in
the promulgation of the Deeming Rule.
s/ Scott Gottlieb MD
Scott Gottlieb, M.D.
Commissioner of Food and Drugs

Appendix F-2
State of Maryland
Montgomery County
On this 3rd day of April Scott Gottlieb personally
appeared before me and acknowledged that he/she
executed the foregoing instrument.
s/ Marguerite Constable
Notary Public
My commission expires: Jan. 10, 2021
U.S. Food & Drug Administration
10903 New Hampshire Avenue
Silver Spring, MD 20993

Appendix G-1
DEPARTMENT OF HEALTH AND HUMAN
SERVICES
Public Health Service
Food and Drug Administration
Silver Spring, MD 20993
DATE:

21 September 2016

TO:

See Recipient List

FROM:

Commissioner of Food and Drugs

SUBJECT: Delegation of Authority for General
Redelegations of Authority from the
Commissioner to Other Officers of the
Food
and
Drug
Administration
(referenced in SMG 1410.21)
I am approving this delegation to amend the
previous version.
1. AUTHORITIES DELEGATED
WHOM DELEGATED.

AND

TO

A. Final authority of the Commissioner of Food
and Drugs (Commissioner) is redelegated as
referenced in the 1410 series of the Agency’s
Staff
Manual
Guides
(SMGs).
The
Commissioner may continue to exercise all
delegated authority referenced in these SMGs
B. The following officials are authorized to
perform all delegable functions of the
Commissioner. These officials may not further
redelegate this authority, or any part of this
authority, except as elsewhere specified:
1) Deputy Commissioner for Medical Products
and Tobacco, Office of Medical Products and
Tobacco (OMPT).

Appendix G-2
2) Chief of Staff, Office of the Commissioner
(OC)
3) Deputy Commissioner for Operations and
Chief Operating Officer, Office of Operations
(OO)
4) Deputy Commissioner for Policy, Planning,
Legislation and Analysis, Office of Policy,
Planning, Legislation and Analysis (OPPLA)
5) Deputy Commissioner for Foods and
Veterinary Medicine, Office of Foods and
Veterinary Medicine (OFVM)
6) Deputy Commissioner for Global Regulatory
Operations and Policy, Office of Global
Regulatory Operations and Policy (OGROP)
7) Chief Scientist, Office of the Chief Scientist
(OCS), OC
8) Associate Commissioner for Regulatory
Affairs, Office of Regulatory Affairs (ORA),
OGROP.
C. The Federal Vacancies Reform Act of 1998
(Vacancies Reform Act) applies if the
Commissioner dies, resigns, or is otherwise
unable to perform the functions and duties of
the Office of the Commissioner.
1) During an absence of the Commissioner that
does not trigger the requirements of the
Vacancies Reform Act, the first official in the
following order who is available, or the official
in the following list who has been designated
by the Commissioner, to act shall lead the
Agency (specific delegations provided below
do not limit the general delegations provided

Appendix G-3
by this section to the designated officials who
are authorized to perform all of -the delegable
functions of the Commissioner):
a. Deputy Commissioner for
Veterinary Medicine, OFVM.

Foods

and

b. Deputy Commissioner for Medical Products
and Tobacco, (OMPT).
c. Chief of Staff, OC.
d. Deputy Commissioner for Operations and
Chief Operating Officer, OO.
e. Deputy Commissioner for Policy, Planning,
Legislation and Analysis, OPPLA.
f. Deputy Commissioner for Global Regulatory
Operations and Policy, OGROP.
g. Chief Scientist, OCS, OC.
h. Associate Commissioner for Regulatory
Affairs, ORA, OGROP.
i. Director, Center for Drug Evaluation and
Research (CDER), OMPT.
2) When the Vacancies Reform Act applies, the
Deputy Commissioner for Foods and
Veterinary Medicine, OFVM, shall act as
Commissioner
unless
the
Deputy
Commissioner for Foods and Veterinary
Medicine, OFVM, does not meet the
requirements of the Vacancies Reform Act or
the President has directed someone else to act
as Commissioner pursuant to the Vacancies
Reform Act.

Appendix G-4
D. Authority delegated to a position by title may
be exercised by a person officially designated to
serve in that position in an acting capacity or
on a temporary basis, unless prohibited by a
restriction in the document designating them
as “acting” or unless not legally permissible.
E. The following officials are authorized to
perform all the functions of the officials under
them in their respective offices and they may
not further redelegate this authority:
1) Deputy Commissioner for Medical Products
and Tobacco, OMPT.
2) Deputy Commissioner for Operations and
Chief Operating Officer, OO.
3) Chief Scientist, OCS, OC.
4) Deputy Commissioner for
Veterinary Medicine, OFVM.

Foods

and

5) Deputy Commissioner for Global Regulatory
Operations and Policy, OGROP.
6) Associate Commissioner
Affairs, ORA, OGROP.

for

Regulatory

7) Chief Counsel, Office of the Chief Counsel.
8) Deputy Commissioner for Policy, Planning,
Legislation and Analysis, OPPLA.
F. The Deputy Commissioner for Medical
Products and Tobacco, OMPT is authorized:
1) To make determinations that advisory
committee meetings are concerned with
matters listed in 5 U.S.C. 552(b) and therefore
may be closed to the public in accordance with

Appendix G-5
Title 21, Code of Federal Regulations (21
CFR) 14.27.
2) To perform other associated advisory
committee functions, e.g., establishing
technical and scientific review groups
(advisory committees); appointing and paying
members; approving waivers to appoint
members to established advisory committees;
renewing and rechartering of established
advisory committees; amending charters of
established
advisory
committees;
and
terminating established advisory committees.
3) To approve conflict of interest waivers for
Special Government Employees (SGEs) and
regular government employees serving on
advisory committees in accordance with 21
U.S.C. 379d-1 and 18 U.S.C. 208(b)1 and
208(b)(3), as amended.
4) To select temporary members to advisory
committees if such voting members are
serving on an advisory committee managed by
another Center.
5) To issue Federal Register (FR) Notices
relating to advisory committee activities.
6) To further redelegate the authorities in
paragraphs F.1-F.5 above to the Associate
Commissioner for Special Medical Programs,
Office of Special Medical Programs (OSMP),
OMPT. In addition, in the event of absence or
a vacancy in the position, the Deputy
Commissioner
for
Policy,
Planning,
Legislation and Analysis, OPPLA, is

Appendix G-6
designated to perform the functions in
paragraphs F.1.-F.5 above.
7) Under Section 503(g)(4)(E)(ii) of the Federal,
Food, Drug and Cosmetic Act (FFDCA), as
added by Section 204 of the Medical Device
User Fee Modernization Act of 2002
(MDUFMA), with respect to combination
products the following: “During the review
process, any dispute regarding the substance
of premarket review may be presented to the
Commissioner of Food and Drugs after first
being considered by the Agency Center with
primary jurisdiction of the premarket review,
under the scientific dispute resolution
procedures
for
such
Center.
The
Commissioner of Food and Drugs shall
consult with the Director of the Office of
Combination Products, OSMP, OMPT in
resolving the substantive dispute.”
G. The Deputy Commissioner for Policy, Planning,
Legislation and Analysis, OPPLA, the
Associate Commissioner for Policy, Office of
Policy (OP), OPPLA, and the Associate
Commissioner for Public Health Strategy and
Analysis, Office of Public Health Strategy and
Analysis (OPHSA), OPPLA, are authorized:
1) To perform any of the functions of the
Commissioner with respect to the issuance of
FR notices and proposed and final regulations
of the Food and Drug Administration. This
authority may not be further redelegated.
2) To issue responses to the following matters
under part 10 of 21 CFR as follows and these

Appendix G-7
officials may not further redelegate this
authority:
a. Requests for waiver, suspension, or
modification of procedural requirements
under Section 10.19 of 21 CFR.
b. Citizen petitions under Section 10.30 of 21
CFR.
c. Petitions for reconsideration under Section
10.33 of 21 CFR.
d. Petitions for stay under Section 10.35 of 21
CFR.
e. Requests for advisory
Section 10.85 of 21 CFR.

opinions

under

3) With respect to any matter delegated to the
Deputy Commissioner for Policy, Planning,
Legislation and Analysis, OPPLA, the
Associate Commissioner for Policy, OP,
OPPLA, and the Associate Commissioner for
Public Health Strategy and Analysis,
OPHSA, OPPLA, under this paragraph, the
Deputy Commissioner for Policy, Planning,
Legislation and Analysis, OPPLA, the
Associate Commissioner for Policy, OP,
OPPLA, and the Associate Commissioner for
Public Health Strategy and Analysis,
OPHSA, OPPLA, are authorized to perform
the functions of the Commissioner under
Section 10.40, 10.45, 10.50, 10.55, 10.60,
10.65, 10.80, 10.90, and 10.95 of 21 CFR and
of a Deputy Commissioner under Section
10.206(g) and (h) of 21 CFR. These authorities
may not be further redelegated.

Appendix G-8
4) Under the Regulatory Flexibility Act (5
U.S.C. 605(b)) to certify that a proposed or
final rule, if issued, will not have a significant
economic impact on a substantial number of
small entities. The Deputy Commissioner for
Policy, Planning, Legislation and Analysis,
OPPLA, the Associate Commissioner for
Policy, OP, OPPLA, and the Associate
Commissioner for Public Health Strategy and
Analysis, OPHSA, OPPLA, may further
redelegate this authority.
5) To make all determinations and findings
under 21 CFR Part 15, and to waive, suspend,
or modify any procedural requirements
related to Part 15 under Section 10.19 of 21
CFR.
H. The Associate Director for Policy, Office of
Policy,
CDER,
OMPT,
is
Regulatory
authorized:
1) To waive or reduce prescription drug user fees
in situations where he or she finds that such
a waiver or reduction: (1) is necessary to
protect the public health under Section
736(d)(1)(A) of the FFDCA (21 U.S.C.
379h(d)(1)(A)), as amended; (2) is necessary
because the fee would present a significant
barrier to innovation under Section
736(d)(1)(B) of the FFDCA (21 U.S.C.
379h(d)(1)(a)), as amended; or (3) is
appropriate under Section 736(d)(1)(D) of the
FFDCA (21 U.S.C. 379h(d)(1)(D)), as
amended because the applicant involved is a
small business submitting its first human

Appendix G-9
drug application. These authorities may not
be further redelegated.
2) To act upon requests for consideration of any
user fee decisions under Section 735 of the
FFDCA (21 U.S.C. 379h), other than decisions
on fee-exceed-the ·cost waiver requests, made
by such officers and the former Deputy User
Fee Waiver Officer prior to July 1, 1999.
These authorities may not be further
redelegated.
I.

The Director, Policy and Regulations Staff,
Office of the Center Director, Center for
Veterinary Medicine (CVM), OFVM is
authorized:
1) To waive or reduce animal drug user fees in
situations where he or she finds that such a
waiver or reduction: (1) is necessary because
the fee would present a significant barrier to
innovation under Section 740(d)(1)(A) of the
FFDCA (21 U.S.C. 379j-12(d)(1)(A)), as
amended; (2) is necessary because the drug
application or supplemental application is
intended solely for use of the animal drug in
medicated feeds under Section 740(d)(1)(C) of
the FFDCA (21 U.S.C. 379j-12(d)(1)(C)), as
amended; (3) is necessary because the animal
drug application or supplemental animal
drug application is intended solely to provide
for minor use or minor species indications
under Section 740(d)(1)(D) of the FFDCA (21
U.S.C. 379j-12(d)(1)(0)), as amended; or (4) is
appropriate under Section 740(d)(1)(E) of the
FFDCA (21 U.S.C. 379h(d)(1)(E)), as
amended because the applicant involved is a

Appendix G-10
small business submitting its first animal
drug application. This authority may not be
redelegated.
2) To waive or reduce generic animal drug user
fees in situations where he or she finds that
such a waiver or reduction is necessary
because the animal drug application or
supplemental animal drug application is
intended solely to provide for minor use or
minor species indications under Section
741(d) of the FFDCA (21 U.S.C. 379j-21(d)), as
amended.
3) Under any of the above cited provisions of
Section 740 and 741 of the FFDCA, to act
upon requests for reconsideration of decisions
made. This authority may not be redelegated.
J.

The Associate Director for Policy and
Communications, Office of the Director, CVM,
OFVM, is authorized to act upon requests for
reconsideration of decisions made under any
provision of Sections 740 and 741 of the
FFDCA, except for those decisions that pertain
to fee-exceed-the cost waiver requests. This
authority may not be further redelegated.

K. The Deputy Commissioner for Operations and
Chief Operating Officer, OO, is authorized to
perform the functions of the Commissioner
under:
1) Section 736(d)(1)(c) of the FFDCA (21 U.S.C.
379h(d)(1)(C)), as amended, to waive or
reduce prescription drug user fees in
situations where he or she finds that “the fees
will exceed the anticipated present and future

Appendix G-11
costs.” The Deputy Commissioner for
Operations and Chief Operating Officer, OO,
may further redelegate the authority in this
paragraph in whole or in part to the Associate
Commissioner for Finance, Budget and
Acquisitions, Office of Finance, Budget and
Acquisitions (OFBA), OO.
2) Section 740(d)(1)(B) of the FFDCA, to waive
or reduce animal drug user fees, for waiver or
reduction requests made on the basis that the
fees assessed exceed the costs to FDA for
reviewing
applications.
The
Deputy
Commissioner for Operations and Chief
Operating Officer, OO, may further
redelegate the authority in this paragraph in
whole or in part to the Associate
Commissioner for Finance, Budge [sic] and
Acquisitions, OFBA, OO.
3) Section 736(c)(4) of the FFDCA, as amended
by the Prescription Drug User Fee Act
Amendments
of
2002,
to
establish
application, product, and establishment fees
under Section 736(a), based on the revenue
amounts established under Section 736(b)
and the adjustments under 736(c). The
Deputy Commissioner for Operations and
Chief Operating Officer, OO, may further
redelegate the authority in this paragraph in
whole or in part to the Associate
Commissioner for Finance, Budget and
Acquisitions, OFBA, OO.
4) Section 738 of the FFDCA, as added by the
MDUFMA, to adjust and set fee rates for
medical device applications each year. The

Appendix G-12
Deputy Commissioner for Operations and
Chief Operating Officer, OO, may further
redelegate the authority in this paragraph in
whole or in part to the Associate
Commissioner for Finance, Budget and
Acquisitions, OFBA, OO.
5) Section 740(c)(4) of the FFDCA, to adjust and
set new and supplemental animal drug
application fees, animal drug sponsor fees,
animal drug product fees, and animal drug
establishment
fees.
The
Deputy
Commissioner for Operations and Chief
Operating Officer, OO, may further
redelegate the authority in this paragraph in
whole or in part to the Associate
Commissioner for Finance, Budget and
Acquisitions, OFBA, OO.
6) Section 741(c)(3) of the FFDCA, to adjust and
set abbreviated application fees, generic new
animal drug sponsor fees, and generic new
animal drug product fees. The Deputy
Commissioner for Operations and Chief
Operating Officer, OO, may further
redelegate the authority in this paragraph in
whole or in part to the Associate
Commissioner for Finance, Budget and
Acquisitions, OFBA, OO.
7) Section 919(b)(6)) [sic] of the FFDCA (21
U.S.C.
387s(c)(6)),
to
notify
each
manufacturer and importer of tobacco
products subject to this Section of the amount
of the quarterly assessment due for such
products. The Deputy Commissioner for
Operations and Chief Operating Officer, OO,

Appendix G-13
may further redelegate the authority in this
paragraph in whole or in part to the Associate
Commissioner for Finance, Budget and
Acquisitions, OFBA, OO.
8) Under any fees-exceed-cost user fee waiver or
reduction sections of the FFDCA noted above,
act upon requests for reconsideration of
decisions made by such officers. This
authority may not be redelegated.
L. The Chief Scientist, OCS, OC, is designated as
the User Fee Appeals Officer. The User Fee
Appeals Officer is authorized to hear and decide
user fee waiver appeals. The decision of the
User Fee Appeals Officer will constitute final
agency action on such matters. The User Fee
Appeals Officer may not further redelegate this
authority.
M. The Deputy Commissioner for Operations and
Chief Operating Officer, OO, is authorized to
perform all of the administrative authorities
(i.e.,
financial,
personnel,
facilities
management, property management, etc.) of
the Commissioner. These authorities may be
further redelegated, except when specifically
prohibited.
N. The following officials are authorized to deny a
request to issue an emergency use
authorization (EUA) under Section 564 of the
FFDCA, and to consult under Section 564(c) of
the FFDCA, requiring “consultation with the
Director of the National Institutes of Health
and the Director of the Centers for Disease
Control and Prevention (to the extent feasible

Appendix G-14
and appropriate given the circumstances of the
emergency involved)” prior to issuing an EUA:
1) Chief Scientist, OCS, OC.
2) Deputy Commissioner for Medical Products
and Tobacco, OMPT.
3) Director, Center for Biologics Evaluation and
Research (CBER), OMPT.
4) Director, Center for Drug Evaluation and
Research (CDER), OMPT.
5) Director, Center for Devices and Radiological
Health (CDRH), OMPT.
O. The following officials are authorized to issue
the final decision regarding the disqualification
of a clinical investigator, i.e., the investigator’s
eligibility to receive investigational articles
under 21 CFR 312.70(b), 511.1(c)(2), or
812.119(b):
1) Deputy Commissioner for Medical Products
and Tobacco, OMPT.
2) Chief Scientist, OCS, OC.
3) Associate Commissioner for Special Medical
Programs, OMPT.
P. The following officials are authorized to sign a
consent agreement between the FDA and a
clinical
investigator
regarding
the
disqualification of the clinical investigator,
resulting in the clinical investigator’s
ineligibility to receive investigational articles
under 21 CFR 312.70(b), 511.1(c)(2), or
812.119(b) and containing a binding provision
that disqualification pursuant to the consent

Appendix G-15
agreement has the same legal effect as being
disqualified pursuant to the relevant regulation
after a Part 16 Hearing. These officials may not
further redelegate this authority.
1) Director, CBER, OMPT.
2) Director and Deputy Director, Office of
Compliance and Biologics Quality (OCBQ),
CBER, OMPT.
3) Director, CDER, OMPT.
4) Director and Deputy Director, Office of
Compliance (OC), CDER, OMPT.
5) Director and Deputy Director, Division of
Scientific Investigations (DSI), OC, CDER,
OMPT.
6) Director, CVM, OFVM.
7) Director and Deputy Director, Office of
Surveillance and Compliance (OSC), CVM,
OFVM.
8) Director, Division of Compliance, OSC, CVM,
OFVM.
9) Director, CDRH, OMPT.
10) Deputy Director for Science, CDRH, OMPT.
11) Director, Office of Compliance (OC), CDRH,
OMPT.
12) Deputy Director for Medical Affairs, OC,
CDRH, OPMT.
2. RE-DELEGATION.
Except as otherwise provided, these Officials may
not further redelegate these authorities.

Appendix G-16
3. EFFECTIVE DATE.
A. These delegations become effective upon date of
signature.
B. In addition, I hereby ratify and affirm any
actions taken by you or your subordinate(s),
which in effect involved the exercise of the
authorities delegated herein prior to the
effective date of this delegation.
s/ Robert M. Califf
Robert M. Califf, M.D.
Commissioner of Food and Drugs
Recipients:
• Chief Counsel, OCC, OC
• Chief Scientist, OCS, OC
• Deputy Commissioner for Foods and Veterinary
Medicine, OFVM
• Deputy Commissioner for Global
Operations and Policy, OGROP

Regulatory

• Deputy Commissioner for Medical Products and
Tobacco, OMPT
• Deputy Commissioner for Operations and Chief
Operating Officer, OO
• Deputy Commissioner for Policy,
Legislation and Analysis, OPPLA

Planning,

• Associate Commissioner for Regulatory Affairs,
ORA, OGROP
• Associate Commissioner
Programs, OMPT

for

Special

Medical

Appendix G-17
• Associate Commissioner for External Affairs, OEA,
OC
• Center Directors
• Center Executive Officers
• Component Delegation Control Officers
• Principal Delegation Control Officer

